Audit Report




OIG-10-050
SAFETY AND SOUNDNESS: Failed Bank Review of Bayside
Savings Bank, FSB
September 29, 2010




Office of
Inspector General
Department of the Treasury
 
                                      DEPARTMENT OF THE TREASURY
                                            W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE NE RAL



                                            September 29, 2010


             OIG-10-050

             MEMORANDUM FOR JOHN E. BOWMAN
                            ACTING DIRECTOR
                            OFFICE OF THRIFT SUPERVISION

             FROM:                 Susan L. Barron /s/
                                   Director, Banking Audits

             SUBJECT:              Failed Bank Review of Bayside Savings Bank, FSB


             This memorandum presents the results of our review of the failure of Bayside
             Savings Bank, FSB (Bayside). Bayside opened in October 2003 and had a main
             office in Port St. Joe, Florida and one branch in Mexico Beach, Florida. The thrift
             was a subsidiary of Coastal Community Investments, Inc., a bank holding company
             located in Panama City Beach, Florida. The Office of Thrift Supervision (OTS)
             closed Bayside and appointed the Federal Deposit Insurance Corporation (FDIC) as
             receiver on July 30, 2010. As of March 31, 2010, the thrift had $66.1 million in
             total assets. FDIC estimated that the loss to the Deposit Insurance Fund is $16.2
             million.

             Because the loss to the Deposit Insurance Fund is less than $200 million, as set
             forth by section 38(k) of the Federal Deposit Insurance Act (FDIA), we conducted a
             review of the failure of Bayside that was limited to (1) ascertaining the grounds
             identified by OTS for appointing the FDIC as receiver, and (2) determining whether
             any unusual circumstances exist that might warrant a more in-depth review of the
             loss. In performing our review we (1) reviewed documentation related to the
             appointment of FDIC as receiver, (2) reviewed OTS reports of examination, and
             (3) interviewed OTS examination personnel.

             We conducted this performance audit during August and September 2010 in
             accordance with generally accepted government auditing standards. Those
             standards require that we plan and perform the audit to obtain sufficient,
             appropriate evidence to provide a reasonable basis for our findings and conclusions
             based on our audit objectives. We believe that the evidence obtained provides a
             reasonable basis for our findings and conclusions based on our audit objectives.
OIG-10-050
Page 2



Causes of Bayside’s Failure
The primary causes of Bayside’s failure were its aggressive growth strategy, excessive
concentrations in higher-risk land and commercial real estate loans, and insufficient
capital relative to the risk level of its loans. These conditions were exacerbated by the
downturn in real estate values in Florida, Bayside’s market. In addition, risk
management activities at Bayside were inadequate. For example, lack of
documentation and weak appraisal review procedures led the thrift to hold a
significant number of classified and delinquent assets. Bayside experienced rapid asset
deterioration beginning in September 2007, resulting in significant increases in its
problem assets and loan losses. In turn, these loan losses significantly diminished
earnings and capital and, ultimately, led to Bayside’s failure.


Conclusion
Based on our review of the causes of Bayside’s failure and the grounds identified
by OTS for appointing FDIC as receiver, we determined that there were no unusual
circumstances surrounding the thrift’s failure or the supervision exercised by OTS.
Accordingly, we have determined that a more in-depth review of the thrift’s failure
by our office is not warranted.

We provided a draft of this memorandum to OTS management for comment. In its
response, OTS stated that the primary causes of Bayside’s failure summarized in
this memorandum are consistent with the information contained in OTS’s reports of
examinations and documents in support of the grounds for receivership. The
response is provided as Attachment 1. A list of the recipients of this memorandum
is provided as Attachment 2. .

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or Amni
Samson, Audit Manager, at (202) 927-0264.

Attachments
         OIG-10-050

       Attachment 1
Management Response
                                                   OIG-10-050

                                                  Attachment 2
                                                    Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Evaluations
   Office of Accounting and Internal Control

Office of Thrift Supervision

   Acting Director
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
